Wendy Alison Nora*
ACCESS LEGAL SERVICES, LLC**
310 Fourth Avenue South, Suite 5010
Minneapolis, Minnesota 55415
VOICE (612) 333-4144
FAX (612) 206-3170
accesslegalservices@gmail.com
* Not admitted to practice law in Minnesota or Wisconsin
**Providing research, investigative, technical,
document and filing services upon the request
of and at the direction of qualified attorneys in
all U.S. states, except the State of Wisconsin

November 25, 2019
Scott S. Harris, Clerk of the United States Supreme Court
United States Supreme Court
1 First Street, NE
Washington, DC 20543
VIA UPS
RE: Wendy Alison Nora, Petitioner v. Minnesota Office of Lawyers Professional
Responsibility
Minnesota Supreme Court Case No. A18-1574
Dear Clerk Harris or Deputy Clerk:
Enclosed please find forty (40) copies of the Petition for Writ of Certiorari to the Seventh
Circuit Court of Appeals (the “Petition”) and Appendices 1-7. Also enclosed is a copy of the
Petition and Appendices produced on 8/4 inch by 11 inch paper format as well as the Rule
33.1(h) Certificate of Compliance with the Word Court limitations of 33.1(g). A check for the
filing fee in the amount of $300.00 is also enclosed.
Pursuant to Supreme Court Rules, I have directed that three (3) copies of the Petition and
Appendices be concurrently served upon counsel for the Respondent, by UPS, at their address of
record in the proceedings:
Susan M. Humiston, Director and
Nicole S. Franks, Assistant Director
OFFICE OF LAWYERS
PROFESSIONAL RESPONSIBILITY
1500 Landmark Towers
345 St. Peter Street
St. Paul, Minnesota 55102-1218
(651)296-3952

DEC -2 IW

Letter to Clerk of United States Supreme Court
page 2
Thank you for your attention to this matter.
Very truly yours,
E-signed /s/ Wendy Alison Nora
Wendy Alison Nora
cc: As stated above
Enel. As stated above

